Table of   Summary of Results                       3
Contents
           Background                               3

           Audit Objective                          4

           Audit Findings                           4

           Management Comments and Our Evaluation   6

           Appendix I - Scope and Methodology       7

           Appendix II - Management Comments        9




                                                        2
Summary of   The audit found that USAID/Romania developed an accurate and complete audit
Results      universe. For the period audited, none of the non-U.S. awards in the Mission's
             audit inventory database met the required audit threshold of $300,000 in annual
             disbursements and therefore, did not require an audit. However, the Mission
             needed to develop an annual audit plan as required by USAID directives to
             facilitate carrying out its audit management responsibilities. Accordingly, we have
             made one recommendation to address this finding.



Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide Agency management reasonable assurance that transactions
             are properly recorded and accounted for; laws and regulations, and provisions of
             contract or grant agreements are complied with; and USAID-financed funds,
             property and other assets are safeguarded against unauthorized use or disposition.

             In response to Congressional concerns, USAID has taken an active role in recent
             years using audits as a management tool to improve financial accountability of its
             programs. During 1991 and 1992, the Agency revised its standard provisions for
             its contracts and grants, requiring annual audits of non-U.S. organizations
             disbursing USAID funds of $25,000 or more. The threshold was increased to
             $100,000 in May 1994 and to $300,000 in July 1998.

             Furthermore, in April 1992, USAID issued a General Notice, defining the role of
             USAID missions in obtaining audits of their contracts, grants and cooperative
             agreements with non-U.S. organizations. In May 1996, these requirements were
             incorporated into chapter 591 of USAID’s Automated Directives System (ADS)
             which, among other things, requires USAID missions to (i) establish an audit
             management program; (ii) maintain an audit inventory database; and (iii) have
             audits done for non-U.S. grants, contracts and cooperative agreements that meet
             the audit threshold.

             These initiatives are of far reaching consequence in preventing misuse of USAID
             development funds and facilitating timely corrective actions. Lack of adequate
             audit coverage constitutes an unacceptable risk because, without such a control
             mechanism, financial accountability of program expenditures cannot be reasonably
             assured.

             In March 1995, the Office of Inspector General (OIG) issued Audit Report No. 3-
             000-95-009 on USAID’s implementation of its 1992 initiative to improve the
             financial management of its programs. The report concluded that most missions had
             implemented the general requirements of the financial audit management program
             and established audit inventory databases. However, complete coverage was impaired
             as a result of obstacles arising from host government restrictions and local audit firm
             capabilities.


                                                                                                  3
                  In March 1998, the OIG issued Audit Report No. 9-000-98-002-F on USAID
                  missions’ roles in obtaining audits of their contracts, grants, and cooperative
                  agreements. The report concluded that 11 of the 14 USAID missions selected
                  USAID-wide generally obtained audits of their contracts, grants, and cooperative
                  agreements as required by ADS chapter 591. However, a significant number of
                  required audits were not completed at 10 of the above 14 USAID missions.

                  In May 1999, OIG management decided to verify the accuracy of USAID
                  missions’ recipient audit universe worldwide over a period of three years because
                  lack of audit coverage was perceived as a high-risk area. Accordingly, the Office
                  of the Regional Inspector General, Budapest (RIG/Budapest) included this audit in
                  its fiscal year 2001 Audit Plan.


Audit Objective   RIG/Budapest performed this audit to answer the following question:

                  Is USAID/Romania’s audit universe complete and accurate and were required
                  audits done in a timely manner?

 Audit Findings   Is USAID/Romania’s audit universe complete and accurate and
                  were required audits done in a timely manner?

                  USAID/Romania’s audit universe was complete and accurate. For the period
                  covered, no audits were required to be done because none of the non-U. S. awards
                  met the required audit threshold of $300,000 in annual disbursements.

                  During the year ended September 30, 2000, USAID/Romania disbursed about $5.1
                  million in awards to 31 U.S. and 4 non-U.S. recipients. The table below provides a
                  breakdown of these amounts by type of agreement and the number of such awards:

                                            U.S.               Non-U.S.                 Total
                       Type of       Disbursements and    Disbursements and     Disbursements and
                      Agreement       No. Of Awards        No. Of Awards         No. Of Awards
                    Contracts          $1,938,744    11        $58,079     1      $1,996,823    12
                    Grants               1,960,838   12        378,386     2        2,339,224   14
                    Cooperative
                                          738,599     8          63,076    1         801,675     9
                    Agreements
                    TOTALS             $4,638,181    31       $499,541     4      $5,137,722    35




                                                                                                     4
Our audit showed that USAID/Romania included the above awards in its database
inventory system and periodically reviewed the non-U.S. awards to determine if
any met the audit threshold and, therefore, were subject to audit coverage.

In addition, we found that the Mission took several actions to establish an audit
management system in accordance with the requirements of ADS Chapter 591.
For example:

•   USAID/Romania established a Management Control Review Committee
    (MCRC) comprised of key Mission officials whose responsibilities include: (1)
    overseeing the Mission’s audit management program; (2) conducting meetings
    periodically to review progress towards implementation of this program; (3)
    evaluating and assessing the Mission’s management controls in order to
    identify significant weaknesses; and (4) coordinating preparation of the
    Mission’s statutory annual reports required under the Federal Managers’
    Financial Integrity Act (FMFIA). A Mission Order was signed in February
    2000, defining duties and responsibilities of the MCRC.

•   In December 1999, the Mission designated an Audit Management Officer
    (AMO) to coordinate and monitor the financial audit program and follow-up on
    implementation of audit recommendations.

•   Between March 6 and December 12, 2000, USAID/Romania issued three
    comprehensive Mission Orders on audit management and resolution to
    facilitate: (1) planning, scheduling, and following up audits, (2) establishing an
    audit tracking system, and (3) providing guidance to cognizant Mission
    officials on implementing the Mission’s audit management program.

•   As part of its reporting responsibilities under the FMFIA, USAID/Romania
    identified areas of improvement in its audit management system and specified
    actions to be taken to address the deficiencies reported.

The above actions have established a sound foundation for an efficient and
effective audit management system. However, we believe that controls could be
further strengthened if USAID/Romania were to develop an annual audit plan to
facilitate identifying, scheduling, tracking and monitoring its financial audits. This
finding is described below in detail.

USAID/Romania Should Develop
an Annual Audit Plan

ADS Chapter 591.5.17 requires USAID missions to develop an audit plan to
ensure complete audit coverage of all non-U.S. organizations including cash
transfers, non-project assistance grants and host country-owned local currency
accounts. The AMO is required to coordinate with the appropriate activity officers



                                                                                    5
                 in developing the Mission’s annual audit plan and provide a copy thereof to the
                 cognizant USAID Regional Inspector General’s office.

                 USAID/Romania has issued Mission Orders that provide comprehensive guidance
                 on audit management and resolution as well as the functioning of its Management
                 Control Review Committee. However, it has not yet developed an Audit Plan.
                 Moreover, the Mission’s FMFIA report for fiscal year 2000 recognized the need
                 for a plan and stated that corrective action would be taken during fiscal year 2001.

                 According to the Audit Management Officer, an Audit Plan has not yet been
                 developed primarily because none of the non-U.S. awards in the Mission’s
                 inventory met the audit threshold of $300,000 in annual disbursements.

                 Nevertheless, an audit plan, if updated annually and implemented timely, would be
                 a useful management tool and provide considerably greater assurance that
                 USAID/Romania is carrying out its audit management responsibilities in
                 accordance with USAID requirements. Accordingly, we are making the following
                 recommendation:

                 Recommendation No. 1: We recommend that USAID/Romania develop an
                 Audit Plan for fiscal year 2001 and update the plan annually thereafter.



Management       In their response to our draft audit report, USAID/Romania management stated
Comments and     that they found the report to be an accurate reflection of the Mission’s
Our Evaluation   performance. They clarified one statement in the report with which we concur and
                 have revised the final report accordingly. Mission comments are included in their
                 entirety in Appendix II to this report.

                 In response to our recommendation, USAID/Romania agreed to develop an Audit
                 Management Plan. We believe that an acceptable management decision has been
                 reached on the above recommendation. Upon completion of final action, the Mission
                 should advise the Office of Management Planning and Innovation in Washington and
                 request closure of the recommendation.




                                                                                                   6
                                                                                   Appendix I


Scope and     Scope
Methodology
              The audit was done in accordance with generally accepted government auditing
              standards and assessed whether (1) USAID/Romania’s audit universe was
              complete and accurate, and (2) required audits were done in a timely manner.

              Fieldwork was performed at the Mission’s office in Bucharest, Romania and at its
              accounting station at the USAID Regional Financial Management Center in
              Budapest, Hungary from January 22 through February 28, 2001. The audit
              universe covered approximately $5.1 million of USAID-funded disbursements to
              35 U.S. and non-U.S. recipients during the fiscal year 2000 and included:

              (1) reviewing USAID/Romania’s audit management program and related
                  documents,

              (2) interviewing cognizant Mission officials,

              (3) reviewing the Mission’s database universe of contracts, grants, and
                  cooperative agreements, and

              (4) identifying awards that require audits.

              In addition, we obtained information on (1) total disbursements for all grants,
              contracts and cooperative agreements (U.S. and non-U.S.) for USAID’s most
              recent fiscal year ended September 30, 2000 and, (2) the number and amount of
              grants, contracts and cooperative agreements falling below the audit threshold of
              $300,000 to obtain a complete picture of the Mission’s portfolio.

              The audit criteria principally comprised of Chapter 591 of USAID’s Automated
              Directives System (ADS) and the OIG’s “Guidelines for Financial Audits
              Contracted by Foreign Recipients” (Guidelines), revised in July 1998.

              Methodology

              The methodology included (1) reviewing the Mission’s audit inventory database to
              determine if it contains the information needed to identify, monitor and track
              awards that need to have audits, (2) examining documents concerning the audit
              management program, and (3) conducting interviews with cognizant officials to
              determine whether the Mission has met its responsibilities established by ADS
              Chapter 591 and the Guidelines.

              To answer our audit objective, we obtained the universe of USAID/Romania’s
              grants, contracts and cooperative agreements and determined the number and


                                                                                             7
dollar amounts of all agreements with non-U.S. organizations subject to audit
coverage at September 30, 2000. The above information was obtained from the
Mission’s contract and project files as well as from the Mission Accounting and
Control System (MACS) database maintained at its accounting station in Budapest,
Hungary.

We then ascertained whether: (1) such awards were included in the Mission’s audit
database inventory, (2) required audits were completed on a timely basis, (3) audit
reports were prepared in accordance with OIG’s Guidelines and sent to
RIG/Budapest for desk review, and the (4) agreements contained the required audit
clauses.

We did not audit USAID/Romania’s MACS database system because of time
constraints and because it was not directly relevant to our audit objective. Also,
because of the small size of the audit universe, we did not use a materiality
threshold and considered even one exception as significant for reporting purposes.




                                                                                 8
             Appendix II

Management
Comments




                       9
Appendix II




         10
